Audit of Premium Travel




                          September 29, 2008
                              Report No. 447
                                              UNITED STATES
                              S E C U R I T I E S A N D EXCHANGE COMMISSION
                                         WASHINGTON, D.C.    20549

     OFFICE OF
INSPECTOR GENERAL
                                      MEMORANDUM
                                           September 29,2608

         To:              Kristine Chadwick, Associate Executive Director, Office of Financial
                          ~ana~ement

          From:           H. David Kotz, Inspector Gener
                                                        $
                                                        &
          Subject:        Audit of Premium Travel, Report No. 447

         This memorandum transmits the Securities and Exchange Commission, Office of
         inspector General's (OIG), final report detailing the results of our audit of
         premium travel. The audit was conducted by the OIG as part sf our continuous
         effort, to assess the management of the Commission's progE3-n~and operations.

         The final report contains 6 recommendations, which if implemented, will
         strengthen internal controls over travel. The Office of Financial Management
         generally concurred with all the report recommendations. Your written response
         to the draft report, dated September 12, 2008, is included in its entirety in
         Appendix V to Ihe audit report. In addition, OIG's response to management's
         comments is included in Appendix VI.

         Should you have any questions regarding ,this report, please do not hesitate to
         contact me. We appreciate the courtesy and cooperation that you and your staff
         extended to our auditor during this audit.

         Attachment

         cc:
                    Peter M. Uhlmann, Chief of Staff
                    Biego Ruiz, Executive Director, O fice of the Executive Director
                    Zayra Okrak, Assistant Director. Fi.nance and Accounting Office, OFM
                    Alan Diguardia, Branch Chief, Financial Operations Branch, OFM
                    Darlerle Pryor, Management Analyst, Office of the Executive Director

                    Rick Hillman, Managing Director of Financial Markets and Community
                    Investment, GAO
Audit of Premium Travel

                          Executive Summary
Background. A primary purpose of the Federal Travel Regulation (FTR) is to
interpret statutory and Executive Branch policy requirements to ensure that
official travel is conducted responsibly while minimizing administrative costs.
Consistent with this purpose, the FTR provides that with limited exceptions,
travelers must use coach class accommodations for both domestic and
international travel. Premium class air travel (first or business class) may be
used only when the traveler’s agency specifically authorizes the use of such
accommodations and only under specific circumstances. Likewise, the FTR
requires that lodging, meals and incidentals (actual expenses) in excess of the
prescribed per diem rate for a specified location be approved in advance of travel
and under specific circumstances.

Per Commission policy, the Office of Financial Management (OFM) permits first
and business class travel only due to a qualifying medical necessity or in other
narrow circumstances expressly provided by the FTR. OFM will not approve
travel upgrades to business class based on the necessity to review confidential
documents or perform agency work.

OFM will approve lodging, meals and incidental upgrades in unusual
circumstances, such as when the Commission’s official Travel Management
Center (TMC) has confirmed that lodging is not available, within the prescribed
per diem rate. Alternatively, the traveler may identify the number of attempts to
find accommodations within the prescribed per diem rate. Also, an upgrade may
be approved if the cost of lodging and meals that must be procured at a
prearranged place in conjunction with a meeting, conference, or training session
will exceed all of the prescribed per diem rates.

Objectives. The objectives of the audit were to assess:

    (1) whether the Commission has established effective management controls
        over airfare (business and first class) and actual expenses travel
        upgrades, and

    (2) if Commission employees are complying with the Federal Travel
        Regulation and other applicable laws, rules, regulations, and policies
        regarding the approval, justification, and documentation of airfare and
        actual expense upgrades.



                                         ii
Audit of Premium Travel                                             September 29, 2008
Report No. 447
Results. The audit found that the Commission has established some
management controls over travel upgrades for airfare and actual expenses.
However, there are several areas in which significant improvements are needed.

Specifically, OFM’s current travel guidance pertaining to travel upgrades is
outdated and requires strengthening. As a result, there is increased risk that
Commission employees may not follow proper procedures for authorizing,
justifying and documenting premium travel. In addition, OFM should update its
travel website to ensure that all effective memoranda, policy updates, etc.
pertaining to premium travel are available electronically to Commission
employees. This will help ensure that employees, especially new hires, can
easily access applicable travel requirements, including those for premium travel,
from one central location. We also found that OFM does not routinely track
summary data related to business class air travel and lodging, meals and
incidental upgrades. Without knowing how much is spent on premium class
travel, the Commission cannot effectively manage its travel budget in order to
prudently safeguard taxpayer dollars

The audit also determined that existing management controls were generally
functioning as intended and upgrades were processed, for the most part, in
accordance with the FTR and Commission policy. Some travel practices,
however, resulted in increased costs to the Commission and the appearance of
impropriety. These practices included travel upgrade requests and travel
vouchers that were self-approved or approved by subordinates and travelers that
left from other than their official duty stations at increased costs to the
Commission.

Summary of Recommendations. To strengthen management controls, the
Commission should: (1) enhance existing policies and procedures pertaining to
travel upgrades to ensure they are comprehensive and current, (2) update its
current travel website to ensure all travel policies are maintained electronically in
one location for easy retrieval by Commission employees, (3) implement
procedures to obtain summary data on travel upgrades for purposes of internal
monitoring, (4) prohibit subordinates from approving their supervisor’s travel and
require Office Heads, Division Directors, and other senior management officials
to obtain approval from a peer or higher level for travel-related matters, (5)
prohibit travel from a telework location if it results in increased cost to the
Commission, and (6) begin to enforce the Office of Management and Budget
requirement to restrict premium class travel for temporary duty when the
employee is not required to report to duty the following day, and include this
requirement in its travel policies and procedures. OAS generally concurred with
all six recommendations. Management’s response to the draft report is included
in its entirety in Appendix V. In addition, OIG’s response to management’s
comments is included in Appendix VI.


                                          iii
Audit of Premium Travel                                              September 29, 2008
Report No. 447
TABLE OF CONTENTS
Executive Summary ...................................................................................................... ii

Table of Contents ........................................................................................................ iv

Background and Objectives .......................................................................................... 1

Findings and Recommendations................................................................................... 3

Finding 1: Management Controls Over Premium Travel Are in Place But Can Be
Improved.......................................................................................................................3
     Travel Policies and Procedures Need to Be Significantly Improved ..................... 4
     Recommendation 1............................................................................................... 7
     OFM Travel Website Requires Updating .............................................................. 8
     Recommendation 2............................................................................................... 8
     Internal Monitoring Over Premium Class Travel Should be Strengthened ........... 8
     Recommendation 3............................................................................................... 9

Finding 2: Management Controls are General Functioning As Intended, However,
There Are Several Practices That Significantly Increase Commission Risk ............... 10
     Travel Upgrade Requests and Travel Vouchers Involving Premium Travel
     were Self-Approved, or Approved by Subordinates or Other Unauthorized
     Individuals........................................................................................................... 10
     Travelers Were Authorized to Leave from Locations Other Than Their
     Official Duty Station at Increased Cost to the Commission................................. 12
     Recommendation 4............................................................................................. 12
     Recommendation 5............................................................................................. 14
     Travelers Had a Rest Stop En Route or Upon Arrival at Their Duty Station ....... 14
     Recommendation 6............................................................................................. 16

Appendices
     Appendix I: Acronyms. ..................................................................................... 17
     Appendix II: Scope and Methodology............................................................... 18
     Appendix III: Criteria......................................................................................... 20
     Appendix IV: List of Recommendations ........................................................... 21
     Appendix V: Management Comments.............................................................. 23
     Appendix VI: OIG Response to Management’s Comments ............................. 26




                                                           iv
Audit of Premium Travel                                                                          September 29, 2008
Report No. 447
Background and Objectives

Background
The Federal Travel Regulation (FTR), 41 C.F.R. §301-1.1 etc., promulgated by
the Administrator of General Services, implements statutory and Executive
Branch policies for travel by Federal civilian employees and others authorized to
travel at government expense. The purposes of the FTR are to interpret
statutory and policy requirements to ensure that official travel is conducted
responsibly while minimizing administrative costs, and to communicate the
resulting travel policies clearly to Federal agencies and employees.

Consistent with its purposes, the FTR, Section 301-10.122, provides that with
limited exceptions, travelers must use coach class accommodations for both
domestic and international travel. Premium class air travel (first or business
class) may be used only when the traveler’s agency specifically authorizes the
use of such accommodations (authorization) and only under specific
circumstances (justification). 1 Likewise, FTR Sections 301-11.301 and 301-
11.302, require that lodging, meals and incidental expenses (actual expenses) in
excess of the prescribed per diem rate for a specified location be approved in
advance of travel and under specific circumstances. Further, under FTR Section
301-11.303, actual expenses cannot exceed 300 percent of the maximum per
diem allowance.

The Office of Financial Management (OFM) is responsible for administering
travel policy for the Commission. In February 1998, OFM issued guidance on the
process for requesting travel upgrades, as well as the criteria for approval. 2
Under the guidance, travelers must complete a form justifying the request. The
form is reviewed by an authorizing official, who forwards it to OFM for final
approval.

Upgrades may be for transportation (first or business class rather than coach)
and lodging, meals and incidentals (actual expenses rather than the standard per
diem amount). Per the Commission’s February 1998, Travel Policy Update, OFM
will permit first and business class travel only due to a qualifying medical
necessity or in other narrow circumstances expressly provided by the FTR.
According to the policy, OFM will not approve travel upgrades to business class
based on the necessity to review confidential documents or perform agency
work.

1
    See FTR Sections 301-10.123 and 301-10.124.
2
    Memorandum to All SEC Employees from Margaret Carpenter, Comptroller, dated Feb. 2, 1998,
    Subject: Travel Policy Update.
                                              1
Audit of Premium Travel                                                    September 29, 2008
Report No. 447
OFM will approve lodging, meals and incidental upgrades in unusual
circumstances, such as when the Commission’s official Travel Management
Center (TMC) has confirmed that lodging is not available within the prescribed
per diem rate. Alternatively, the traveler must identify the number of attempts to
find accommodations within the prescribed per diem rate. Also, an upgrade may
be approved if the cost of lodging and meals that must be procured at
prearranged place in conjunction with a meeting, conference, or training session
will exceed all of the prescribed per diem rates.

Additionally, the Office of International Affairs (OIA) is responsible for
coordinating and approving all international staff travel for the SEC. All foreign
travel is reviewed by OIA in conjunction with the Office of the Executive Director
(OED) to ensure it is limited, reasonable, and consistent with the SEC’s
objectives. The traveler is required to provide OIA and OED with documentation
related to the foreign travel trip including such information as purpose of trip,
travel itinerary, an agenda of the event, and invitation letter or email for the event.

Because many of the foreign travel trips are in excess of 14 hours, they are
eligible for an airfare travel upgrade under FTR Section 301.10-124(h).
Therefore, many trips taken by Commission employees are reviewed and
approved by OFM, OIA and OED. OFM reviews the travel upgrade request to
ensure it meets one of the allowable exceptions in the FTR and agency policy.
OIA and OED review information pertaining to the trip to ensure the travel is
conducted in a resource-efficient manner that best serves the Commission’s
programmatic interests.

The Commission spent approximately $5.8 million on travel in FY 07 and $4.2
million in FY 08 as of April 30, 2008. During FY 07 and FY 08, OFM approved 42
and 14 business class air upgrades, respectively. They reported no first class
travel for this period. OFM also approved approximately 1,095 and 564 lodging
upgrades for FY07 and FY 08, respectively.

In June 2008, during the course of the audit, OFM completed its implementation
of FedTraveler, a new automated travel system that brings the SEC in
compliance with the Presidential E-gov initiative requiring all Federal agencies to
migrate to an E-gov Travel Service (ETS) provider. EDS’ FedTraveler system is
one of the approved ETS providers under the General Services Administration
(GSA) umbrella. Under this new system, all travel actions, including travel
upgrades, are prepared, approved, and documented electronically.


Objectives
The objectives of the audit were to assess:


                                          2
Audit of Premium Travel                                               September 29, 2008
Report No. 447
      (1) whether the Commission has established effective management controls
          over airfare (business and first class) and lodging travel upgrades, and

      (2) if Commission employees are complying with the Federal Travel
          Regulation and other applicable laws, rules, regulations, and policies
          regarding the approval, justification, and documentation of airfare and
          lodging upgrades.



               Findings and Recommendations

The audit found that the Commission has established management controls over
travel upgrades for lodging and airfare. However, additional improvements can
be made in the areas of: (1) enhanced policies and procedures, (2) an updated
travel website containing relevant memos, policies, etc. related to travel
upgrades, and (3) increased monitoring of premium travel. We also found that
existing management controls were generally functioning as intended and
upgrades were processed, for the most part, in accordance with the FTR and
Commission policy. Some travel practices, however, resulted in increased costs
to the Commission and the appearance of impropriety. Lastly, we determined
that all recommendations from a prior OIG audit pertaining to travel upgrades
had been closed. 3

Our detailed findings and recommendations are discussed below.

Finding 1: Management Controls Over
Premium Travel Are in Place, But Can Be
Improved
          OFM’s current travel guidance pertaining to travel upgrades
          is outdated and requires strengthening. As a result, there is
          increased risk that Commission employees may not follow
          proper procedures for authorizing, justifying and
          documenting premium travel.




3
    OIG Audit Report No. 281, Travel Upgrades, Issued June 5, 1998.
                                                 3
Audit of Premium Travel                                               September 29, 2008
Report No. 447
Travel Policies and Procedures Need to Be Significantly
Improved

In February 1998, OFM issued a memorandum titled Travel Policy Update
(the policy). The policy contains guidance on the process for requesting
travel upgrades, as well as the criteria for approval. However, the policy is
outdated and contains references to the FTR which are no longer valid.
For example, the policy states that frequent flyer upgrades must be
approved in advance by the Office of the Comptroller (now OFM), which is
no longer required by OFM or the FTR. Also, the policy includes
references to the FTR pertaining to travelers finding information on
transportation upgrades, use of noncontract carriers, and lodging, meals
and incidental expenses that have since been changed.

The policy also needs to be strengthened by making it more
comprehensive and incorporating internal control requirements mandated
by the Office of Management and Budget (OMB). Based on the OIG’s
review of the policy, there are several areas that could be more descriptive
in order to help ensure travelers understand premium travel requirements.
Additionally, in January 2008, OMB issued Memorandum M-08-07, Use of
Premium Class Travel 4 , requiring agencies to immediately implement
specific internal controls over premium travel. OFM has not updated its
policy to incorporate these requirements, although the Executive Director
informed OMB in February 2008 that the Commission would do so.

Based on the OIG’s review of current policy, we believe it could be
strengthened by addressing the following areas:

    •   Identify when travelers can upgrade travel to first or business class
        per the FTR and in what circumstances the Commission applies
        more restrictive guidance. For example, the policy states that
        requests to upgrade to business class based on necessity to review
        confidential documents or perform agency work will not be
        approved. However, the policy does not explicitly state that upgrade
        requests based on agency mission (see FTR, Section 301-
        10.124(i)) will not be approved. Additionally, we identified two
        instances where travelers were upgraded for reasons that appear
        to be related to performance of agency work. In one instance, the
        traveler stated in their justification that they had prior commitments
        and could not depart before a specific day. Therefore, the request
        was necessary to allow time to prepare for a speech and rest
        before arriving in London. The same traveler used a similar

4
  Memorandum to the Heads of Departments and Agencies from Clay Johnson, Deputy Director
for Management, dated January 8, 2008, Subject: Use of Premium Class Travel.
                                             4
Audit of Premium Travel                                                 September 29, 2008
Report No. 447
        justification for a trip to Paris. In both instances, OFM approved the
        travel upgrade requests to business class air. To ensure consistent
        application of the policy, it should be revised to clearly
        communicate in what circumstances, if any, travelers are permitted
        to upgrade based on agency mission.

    •   Clearly state what constitutes an acceptable written justification for
        requesting a travel upgrade. To illustrate, current policy states that
        requests for upgrades to actual expenses for lodging, meals and
        incidentals require justification and that the justification should be
        as detailed as possible. The policy further states that lodging
        upgrades will only be approved in special circumstances, such as
        when the Commission’s TMC has confirmed that lodging is not
        available within the prescribed per diem rate. In lieu of TMC
        confirmation, the traveler must identify the number of attempts to
        find accommodations. Also, an upgrade may be approved if the
        cost of lodging and meals that must be procured at a prearranged
        place in conjunction with a meeting, conference, or training session
        will exceed all of the prescribed per diem rates.

        The policy, however, does not specify what information should be
        included in the travel upgrade justification provided to OFM. The
        policy should address issues such as the number of hotels travelers
        are expected to call and procedures to take when attending a
        conference or other event and rooms have been pre-booked for
        conference participants. The policy should also specify and/or
        provide examples of the type of information that should be included
        in the justification submitted to OFM for review and approval. This
        will help ensure that the traveler understands what is required of
        them as well as provide OFM more complete information upon
        which to base a travel upgrade decision. This is particularly
        important since the new FedTraveler system only provides a blank
        text box in which to enter a justification with no explanation or pull
        down menu options, as shown below in Figure 1:




                                          5
Audit of Premium Travel                                              September 29, 2008
Report No. 447
        Figure 1: Fed-Traveler Window




        Source: FedTraveler.com

    •   Include a required lead time for travelers to submit travel upgrade
        requests for approval and average turnaround time for review and
        approval of requests by OFM. This will help ensure that OFM
        receives travel upgrade requests in sufficient time to permit a
        thorough review. While we found that OFM approved travel
        upgrade requests in a timely manner, many times within a day of
        the request, travelers often provided the request to OFM for
        approval only a few days prior to travel.

    •   Identify the responsibilities of the authorizing official with regard to
        approval of a travel upgrade request. The current policy states that
        each request for an upgrade or actual expenses must first be
        reviewed and approved by an authorizing official. The policy,
        however, does not clearly state what the authorizing official should
        consider in regards to approving the travel upgrade. Based on our
        review, authorizing officials (typically the traveler’s supervisor) send
        an email to OFM simply stating they approve the upgrade, but there
        is no way of knowing what factors were considered in making that
        decision. The OIG believes that OFM should emphasize the
        importance of minimizing excess travel costs in the spirit of the
        FTR. Accordingly, authorizing officials should consider other
        alternatives (e.g., travelers’ use of frequent flyer miles for official
        travel, holding a teleconference versus traveling, utilizing coach
        class, etc.) when the cost of a business class fare far exceeds that
        of a coach class fare. Based on our review, it appeared that
        authorizing officials automatically approved business class
        upgrades for foreign trips in excess of 14 hours without scrutinizing
        the requests. The cost of a business class fare versus coach fare

                                           6
Audit of Premium Travel                                               September 29, 2008
Report No. 447
        for some of these trips was substantial, as illustrated in Table 1
        below:

   Table 1: Business Class Versus Coach Class
   Example                Itinerary      Coach              Approved
                                         Fare per           Business
                                         Traveler’s         Class Fare
                                         Premium
                                         Travel
                                         Request
   1                      DC to              $1,435             $9,025
                          Hong Kong
   2                      DC to                 $987            $8,071
                          Tokyo
   3                      DC To                 $947            $7,073
                          Paris
   4                      Milwaukee            $3,927          $10,010
                          to Tokyo
  Source: OIG Generated

    •   Explain how travel upgrades are handled in the new electronic
        FedTraveler system. Current policy discusses a manual process
        which is no longer followed.

Based on review of OMB Memorandum M-08-07, Use of Premium Class
Travel, the policy should also: (1) explain when mission criteria and intent
call for premium class accommodations; (2) define what constitutes a rest
period; (3) require annual certifications of a disability, unless such
disability is lifelong; and (4) restrict premium class travel for both
temporary duty and permanent change of station travel (relocations) when
the employee is not required to report to duty the following day.

Recommendation 1

The Office of Financial Management (OFM) should revise its current policies and
procedures pertaining to travel upgrades to ensure they are comprehensive and
current. The policies and procedures should: (1) clarify when travelers can
upgrade airfare according to the Federal Travel Regulation and Commission
policy, (2) communicate what constitutes an acceptable written justification for
airfare and lodging upgrades, (3) include a required lead time for travelers to
submit travel upgrade requests for approval and an average turnaround time for
review and approval of requests by OFM, (4) identify the responsibilities of the
authorizing official with regard to approval of a travel upgrade request, (5)
explain how travel upgrades are handled in the new electronic FedTraveler
system, and (6) include internal control requirements specified in the Office of
Management and Budget Memorandum M-08-07, Use of Premium Class Travel.


                                           7
Audit of Premium Travel                                              September 29, 2008
Report No. 447
OFM Travel Website Requires Updating

OFM should update its travel website to ensure that all effective
memoranda, policy updates, etc. pertaining to premium travel are
available electronically to Commission employees. This will help ensure
that employees, especially new hires, can easily access applicable travel
requirements, including those for premium travel from one central location.

We found that subsequent to OFM’s February 1998 policy, Travel Policy
Update, OFM has also issued the following memoranda that discuss
premium travel among other requirements:

    •   Memorandum to All Travelers from Darrell L. Dockery, Assistant
        Director for Finance and Accounting, OFM, dated January 8, 2002,
        Subject: Frequent Flyer Benefits Update; and
    •   Memorandum to All Travelers from Darrell L. Dockery, Assistant
        Director, Finance and Accounting, OFM, dated August 8, 2006,
        Subject: Travel Policy Update.

These policies were provided to the auditor by an OFM travel specialist in
response to an inquiry for updated policies regarding premium travel;
however, the documents are not maintained electronically on OFM’s travel
website for Commission employees to be able to access.

Recommendation 2

The Office of Financial Management should update its current travel
website to ensure all travel policies and procedures, including those that
discuss travel upgrades, are maintained electronically in one location for
easy retrieval by Commission employees.

Internal Monitoring over Premium Class Travel Should Be
Strengthened

We found that OFM does not routinely track summary data related to
business class air travel and lodging, meals and incidental upgrades.
Without knowing how much is spent on premium class travel, the
Commission cannot effectively manage its travel budget in order to
prudently safeguard taxpayer dollars. Also, OFM does not maintain data
on premium travel in a format that allows it to readily identify the
population of premium travelers and note patterns and trends that may be
indicative of abusive travel. Further, it is unclear how OFM management
is able to effectively manage its workload (e.g., ensure that there are
adequate resources devoted to this work) without summary workload data.

                                         8
Audit of Premium Travel                                            September 29, 2008
Report No. 447
The FTR requires all executive branch agencies to provide GSA with
annual reports listing all instances in which the organizations approved the
use of first class transportation accommodations, which GSA then
forwards to OMB. However, agencies are not currently required to report
on the use of premium travel for other than first class air travel. 5

Despite the fact that business class travel has accounted for all premium
class air travel at the Commission during the audit period, OFM does not
maintain summary data (e.g., name of traveler, date and location of travel,
type of upgrade requested, cost of the upgrade, date of upgrade request
and response date and disposition) regarding business travel upgrade
requests. OFM used to maintain an electronic mailbox called OC_Travel
(by fiscal year) containing email traffic related to travel upgrade requests,
denials and approvals, however, this information is not easy to view or sort
in order to determine the amount of travel upgrades, the value of the
upgrades, and other summary data. Additionally, data on travel upgrades
is not requested or reviewed by upper management within OFM on a
routine basis to identify trends or patterns, etc.

The OFM travel specialist responsible for reviewing travel upgrade
requests stated that she used to maintain a spreadsheet containing
summary data for all types of travel upgrade requests including air and
lodging, but discontinued the practice in FY 2005 because prior
management never asked to see the data and it appeared to be a waste
of time. Also, the new FedTraveler system does not currently produce
travel upgrade summary data.

Recommendation 3

The Office of Financial Management (OFM), in conjunction with the FedTraveler
developer, needs to enhance the system to produce travel upgrade data and
implement procedures to periodically obtain data from the Travel Management
Center on business class travel, in addition to any first class travel, and compare
that data with OFM approvals in FedTraveler to ensure all airfare upgrades are
receiving proper approval prior to travel.




5
    See FTR Sections 300.70-100 through 300.70-104.
                                               9
Audit of Premium Travel                                             September 29, 2008
Report No. 447
Finding 2: Management Controls are
Generally Functioning as Intended; However,
There are Several Practices That Significantly
Increase Commission Risk
        Travel Upgrade Requests and Travel Vouchers Involving
        Premium Travel were Self-Approved, or Approved by
        Subordinates or Other Unauthorized Individuals

We found that an Office Head, Division Director, and another senior
management official in the Commission approved their own travel upgrade
requests prior to submitting them to OFM for final review and approval.
Additionally, we found one instance where a Division Director self-
approved his travel voucher claiming expenses for premium travel. We
also found instances where travel upgrade requests and travel vouchers
were approved by subordinates or those without proper authorization. As
a result, internal controls are not always functioning as intended.

OFM’s February 1998 Memorandum, Travel Policy Update, requires
travelers to have travel upgrades reviewed and approved by a travel
authorizing official prior to forwarding to OFM for final review and
approval. Essentially, this management control is intended to provide two
layers of review and approval.

Out of a sample of 32 trips involving premium air travel, we identified 19
instances where approvals were found to be problematic.

    •   Nine instances where senior management officials self-approved
        their travel upgrade requests (by leaving blank or inserting their
        name into the authorizing official signature box on the Unusual
        Circumstances for Travel Form) prior to electronically sending the
        form to OFM for review and approval. The Unusual Circumstances
        for Travel Form contains information regarding the type of upgrade
        requested, justification for the upgrade, cost of the upgrade, etc.
        The form is completed by the traveler, approved by a travel
        authorizing official, and forwarded to OFM for approval per its
        current policy.

    •   One instance where a Division Director self-approved his travel
        voucher claiming expenses for premium travel.

    •   One instance where a subordinate (SK-17) approved a Senior
        Officer’s Unusual Circumstances for Travel Form.
                                        10
Audit of Premium Travel                                             September 29, 2008
Report No. 447
    •   Six instances where a subordinate of an Office Head approved their
        travel vouchers claiming expenses for premium travel.

    •   We also identified two instances where individuals not designated
        by their offices as travel authorizing officials approved traveler’s
        Unusual Circumstances for Travel Forms. In one instance, the
        individual also approved the related travel voucher claiming
        expenses for premium travel.

An OFM travel specialist explained that prior to February 2008, the
Commission permitted self-approval of travel authorizations and vouchers.
Likewise, the OFM travel specialist allowed self-approval of travel upgrade
requests. However, in February 2008, the former Financial Operations
Branch Chief for OFM issued a memorandum to all Division Directors,
Office Heads, Regional Directors, and District Administrators stating,
“Effective immediately, Division Directors, Office Heads, Regional
Directors, and District Administrators are no longer permitted to
authorize/approve their own travel authorizations and vouchers. The new
policy requires that each Division Director, Office Head, Regional Director
and District Administrator designate, in writing, to the Office of Financial
Management, an official(s) at the next lower level, to sign as travel
authorizing/approving official for him/her on both travel authorizations and
vouchers.” 6 The new policy also requested that offices designate, in
writing, individuals to be general travel authorizing/approving officials for
their office. The memorandum did not specifically address travel upgrade
requests.

The OFM travel specialist further explained that the change occurred due
to a review conducted by the General Accountability Office (GAO) and that
she was informed by the prior Chief Financial Officer, as well as the
former Assistant Director for Finance and Accounting, that the change did
not affect self-approval of travel upgrade requests. Therefore, the OFM
travel specialist had continued to allow the practice.

While the OIG has learned that the new FedTraveler system, which was
fully implemented in June 2008, has controls to prevent self authorization
and authorization by individuals without proper authority, the system will
not prevent a subordinate from approving a supervisor’s travel if the
subordinate has been included in the system by OFM as a designated
travel authorizing/approving official.



6
  Memorandum to Division Directors, Office Heads, Regional Directors and District Administrators
from Russell Follin, Branch Chief, Financial Operations, OFM, dated February 19, 2008, Subject:
Travel Authorizing Officials Signature Authority: Policy Changes.
                                                 11
Audit of Premium Travel                                                      September 29, 2008
Report No. 447
The GAO recently highlighted in its report on government-wide premium
class travel, Report No. GAO-07-1268, Internal Control Weaknesses
Governmentwide Led to Improper and Abusive Use of Premium Class
Travel (Sept. 2007), page 14, that the FTR does not forbid subordinates
from approving their superior’s premium class travel. However, applying
criteria set forth in GAO’s internal control standards 7 and sensitive
payment guidelines 8 , premium class transactions approved by
subordinates reduced scrutiny of premium class travel and amounted to
self-approval.

The OIG believes that having subordinates approve their supervisors’
travel creates the appearance of impropriety and a potential conflict of
interest. This is particularly true when travel by senior management
officials is approved by subordinates.

Recommendation 4

The Office of Financial Management should implement a policy prohibiting
subordinates from approving their supervisors’ travel and require Office Heads,
Division Directors, and other senior management officials to obtain approval from
a peer or higher level for travel-related matters.


Travelers Were Authorized to Leave from Locations Other
than their Official Duty Location at Increased Costs to the
Commission

We identified three instances involving premium travel where travelers left
from locations other than their official duty stations. This resulted in the
Commission incurring $5,604 in additional costs for the increased airfare.

The FTR, Section 301-10-7, requires travelers to travel to their destination
by the usually traveled route unless their agency authorizes or approves a
different route as officially necessary. The FTR, Section 301-10.8, further
states that a traveler’s reimbursement will be limited to the cost of travel
by a direct route or on an uninterrupted basis and that the traveler will be
responsible for any additional costs. In August 2006, OFM issued a
memorandum to all travelers stating that the SEC requires all official travel
to be from the official duty station or official residence. 9 The
7
  GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, November
  1999.
8
  GAO/AFMD-8.1.2, Guide for Evaluating and Testing Controls Over Sensitive Payments, May
  1993.
9
  Memorandum to All Travelers from Darrell L. Dockery, Assistant Director, Finance and
Accounting, dated Aug. 8, 2006, Subject: Travel Policy Update.
                                               12
Audit of Premium Travel                                                  September 29, 2008
Report No. 447
memorandum further states that the government airfare is only for official
travel segments from your official duty station to your official travel
locations. If a traveler leaves from another location for personal reasons or
convenience, they are responsible for the difference in the airfare.

Out of a sample of 32 trips involving premium air travel, we found three
instances where travelers originated and terminated travel from other than
their official duty station per their travel voucher and supporting
documents. All three instances involved travel originating and terminating
at an airport near the traveler’s residence. Details of the trips are
summarized in the table 2 below:


Table 2: Travelers Leaving From Other Than Their Duty Station
 Traveler             Itinerary      Duty Station Per         Additional
                                     Travel Voucher           Cost to the
                                                              Government
 A (Trip 1)           Chicago to     Washington, DC                   $762
                      Uganda
 A (Trip 2)           Milwaukee      Washington, DC                 $4,842
                      to Tokyo
 B                    Newark to      Washington, DC                     $0
                      Tokyo
 TOTAL                                                              $5,604
Source: OIG Generated


Because the travelers did not originate travel from the official duty station
claimed on their travel voucher, the total additional cost to the Commission
was approximately $5,604 for the increased airfare. The travelers’
vouchers and supporting documentation did not show why the change in
routing of their travel was “officially necessary,” however, in one instance,
the traveler (Traveler B) stated on their travel upgrade request that they
were leaving from their telework location. For all three trips, the travelers
had authorizations approved by their supervisors showing they were
leaving from other than their duty station.

Although the Commission’s travel policies and procedures do not
specifically address telework and travel, an OFM travel specialist stated it
was OFM’s practice to approve travel upgrade requests from a location
other than the duty station when a traveler has documentation showing
they are scheduled to telework the day of and the day they return from
travel.

Based on our audit, however, we were unable to obtain a copy of a
telework agreement for Traveler A from OHR, the traveler’s office, or
OFM. The traveler’s office told the OIG that the individual had the option
                                         13
Audit of Premium Travel                                             September 29, 2008
Report No. 447
to telework and they thought a telework agreement existed. OHR,
however, was unable to verify the existence of such an agreement. Also,
Traveler A terminated Trips 1 and 2 at an airport near his residence on a
weekend (non-telework day). Additionally, while OFM provided email
documentation indicating that Traveler B had a telework agreement in
place, OFM did not have a copy of the actual agreement, and Traveler B
also terminated his travel at an airport near his residence on a weekend
(non-telework day).

An OFM travel specialist provided email documentation showing that the
former Chief Financial Officer had discussions with the Office of General
Counsel and Office of Human Resources on the issue of telework and
travel around August 2005 and decided to hold off on issuing Commission
policy until the Office of Personnel Management and the General Services
Administration finished work on these issues. The OIG recently contacted
a representative from GSA knowledgeable of the FTR and was informed
that the FTR has not been updated to discuss rules pertaining to travel
from telework locations.

In the absence of specific OMB and GSA guidance, the Commission
should strengthen its existing policies and procedures to address
situations where travelers propose to leave from a telework location
including any additional costs that may arise.

Recommendation 5

The Office of Financial Management should revise current policy to
address situations where travelers leave from a telework location and
prohibit travel from a telework location if it results in additional cost to the
Commission.


Travelers Had a Rest Stop En Route or Upon Arrival at
Their Duty Station

We found that travelers often had a rest stop upon arrival back to their
duty station or rest stop en route to their destination, although they
requested and were approved for business class accommodations on a
foreign trip because the flight time was in excess of 14 hours. As a result,
this appears to be in violation of the intent of the FTR and OMB
guidelines.

FTR Section 301-10.124(h) permits travelers to use business class airline
accommodations where the scheduled flight time, including stopovers and
change of planes, is in excess of 14 hours. FTR Section 301-10.124(h)
                                           14
Audit of Premium Travel                                                 September 29, 2008
Report No. 447
further states that in this instance, a traveler will not be eligible for a rest
stop en route or a rest period upon arrival at their duty site.

Out of a sample of 32 trips involving premium air travel, we found 10
instances where travelers returned home on a Friday or Saturday and,
therefore, appeared to have a rest period prior to returning to work the
following Monday. We also identified three trips where travelers had a
rest stop en route on their return trip home. For one of the three trips, the
traveler left Montevideo on Thursday, April 3, 2008 at 9:20pm, arrived in
Miami at 5:10am the same day, departed Miami on April 4, 2008 (the next
day) at 8:15am and arrived back into Washington, DC at 10:39am.
Therefore, because the traveler had a rest stop en route, (staying in Miami
the night of April 3, 2008), the flight time did not meet the 14 hour
requirement (it was approximately 9 hours). The total cost of the airfare for
this trip was approximately $6,300.

An OFM travel specialist stated that OFM’s interpretation of the FTR is
that a traveler cannot be approved for an upgrade using the 14 hour rule if
they have a rest period upon arrival at their temporary duty location (duty
site), but they can have a rest period upon returning home, especially if
they return home on a Friday or Saturday and normally would be off the
following day. With regard to the trips where we found that travelers had
a rest stop en route, the OFM travel specialist stated that approval of the
airfare upgrade was an oversight. For one of the three trips, the OFM
travel specialist did not believe the traveler provided sufficient information
on their Unusual Circumstances for Travel form to enable her to make a
determination that there was a rest stop en route.

In January 2008, OMB issued Memorandum No. M-08-07, Use of
Premium Class Travel, requiring agencies to implement certain premium
class travel policies. One of those policies was to restrict premium class
travel for temporary duty when the employee is not required to report to
duty the following day. On February 25, 2008, the Executive Director for
the Commission provided OMB a response stating, among other things,
that they would ensure that business class travel is not approved if the
employee is not required to report to work the following day. 10

Since the memorandum was issued, we only found one instance where a
traveler was approved by OFM for a business class upgrade. The traveler
returned home on a Friday afternoon and it appears they were not
required to report to work the following day. The OFM travel specialist
responsible for approving the upgrade request stated that they were

10
     Memorandum to Danny Werfel, Acting Controller, Office of Management and Budget from
     Diego Ruiz, Executive Director, Office of Executive Director, SEC, dated Feb. 25, 2008,
     Subject: Use of Premium Class Travel.
                                                   15
Audit of Premium Travel                                                        September 29, 2008
Report No. 447
aware of the OMB memorandum, but did not specifically remember the
subject requirement or receiving a copy of the Commission’s response to
OMB.

The OIG believes that the Commission should comply with the OMB
requirement to “restrict” premium class travel when an employee is not
required to report to work the following day and develop appropriate policy
to clarify how the Commission will enforce the requirement. The policy
should address situations where travelers return on a weekday as well as
on a weekend, where the traveler would normally have the next day off.

Recommendation 6

The Office of Financial Management should immediately begin to enforce the
Office of Management and Budget’s requirement to restrict premium class travel
for temporary duty when the employee is not required to report to duty the
following day and include this requirement in its travel policies and procedures.




                                        16
Audit of Premium Travel                                           September 29, 2008
Report No. 447
                                                        Appendix I

                                 Acronyms

OIG              Office of Inspector General
OFM              Office of Financial Management
OED              Office of the Executive Director
TMC              Travel Management Center
OMB              Office of Management and Budget
FTR              Federal Travel Regulation
GAO              General Accountability Office
SEC              Securities and Exchange Commission
GSA              General Services Administration




                                        17
Audit of Premium Travel                               September 29, 2008
Report No. 447
                                                                      Appendix II


                          Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. The audit’s scope encompassed travel upgrade requests for airfare
(business and first class) and lodging approved by OFM during FY 07 and FY 08
(up to April 30, 2008). During FY 07 and FY 08, OFM approved 42 and 14
business class air upgrades, respectively. They reported no first class travel for
this period. OFM also approved approximately 1,095 and 564 lodging upgrades
for FY 07 and FY 08, respectively. OFM provided data showing they
disapproved two airfare upgrades during FY 07. Fieldwork was performed from
May 2008 through August 2008.

Methodology. We interviewed applicable Commission staff in the Office of
Financial Management as well as the General Services Administration; reviewed
applicable internal operating procedures and laws and regulations, reviewed
available operational data pertaining to travel upgrade approvals; reviewed travel
vouchers and supporting documentation for a judgmental sample of travel
upgrade requests processed during the audit period; and interviewed officials
from EDS to gain an understanding of applicable application controls in the new
FedTraveler system. We also determined if all recommendations from a prior
related audit had been closed.

Internal/Management Controls. We reviewed management controls as they
pertained to the audit objectives.

Judgmental Sampling. Our judgmental sample of 32 out of 56 total travel
upgrade requests for the audit period consisted of the following:

FY 08 - We sampled 9 out of a population of 14 (64%) airfare travel upgrades,
two of which also had upgraded lodging.

FY 07- We sampled 23 out of a population of 42 (55%) airfare travel upgrades,
ten of which also had upgraded lodging.

The judgmental sample was based on the following three criteria.
                                        18
Audit of Premium Travel                                            September 29, 2008
Report No. 447
    •   Airfare upgrades where the total cost of the upgraded airfare appeared to
        be in excess of $8,000.
    •   Airfare upgrades where the traveler also upgraded lodging.
    •   Airfare upgrades where the justification was other than travel being over
        14 hrs or the traveler having a medical condition permitting the upgrade
        (e.g. coach class was not available, necessary for agency mission, etc.).

The rationale for the criteria was to look at the highest dollar travel upgrades as
well as those upgrades that pose the greatest risk.

Prior Audit Coverage. The OIG reviewed the Commission’s process for
processing travel upgrades in a prior audit, No. 281, Travel Upgrades (June 5,
1998), and made several recommended enhancements to the controls over
upgrades and other travel expenditures.




                                         19
Audit of Premium Travel                                              September 29, 2008
Report No. 447
                                                                      Appendix III


                                   Criteria

Federal Travel Regulation, 41 C.F.R. § 301-1.1, etc.- The FTR implements
statutory requirements and Executive branch policies for travel by Federal civilian
employees and others authorized to travel at Government expense.

OMB Memorandum M-08-07, Use of Premium Class Travel (Jan. 8, 2008)-
Requires agencies to implement certain internal controls over premium class
travel.

SEC February 2, 1998 Memorandum, Travel Policy Update- Contains
guidance on the process for requesting travel upgrades, as well as the criteria for
approval.

SEC August 8, 2006 Memorandum, Travel Policy Update: Contains updated
guidance regarding a variety of travel areas including premium travel.




                                        20
Audit of Premium Travel                                            September 29, 2008
Report No. 447
                                                                      Appendix IV


                          List of Recommendations

Recommendation 1

The Office of Financial Management (OFM) should revise its current policies and
procedures pertaining to travel upgrades to ensure they are comprehensive and
current. The policies and procedures should (1) clarify when travelers can
upgrade airfare according to the Federal Travel Regulation and Commission
policy, (2) communicate what constitutes an acceptable written justification for
airfare and lodging upgrades, (3) include a required lead time for travelers to
submit travel upgrade requests for approval and an average turnaround time for
review and approval of requests by OFM, (4) identify the responsibilities of the
authorizing official with regard to approval of a travel upgrade request, (5)
explain how travel upgrades are handled in the new electronic FedTraveler
system, and (6) include internal control requirements specified in the Office of
Management and Budget Memorandum M-08-07, Use of Premium Class Travel .

Recommendation 2

The Office of Financial Management should update its current travel
website to ensure all travel policies and procedures, including those that
discuss travel upgrades, are maintained electronically in one location for
easy retrieval by Commission employees.

Recommendation 3

The Office of Financial Management (OFM) in conjunction with the FedTraveler
developer needs to enhance the system to produce travel upgrade data and
implement procedures to periodically obtain data from the Travel Management
Center on business class travel, in addition to any first class travel, and compare
that data with OFM approvals in FedTraveler to ensure all airfare upgrades are
receiving proper approval prior to travel.


Recommendation 4

The Office of Financial Management should implement a policy prohibiting
subordinates from approving their supervisors’ travel and require Office Heads,
Division Directors, and other senior management officials to obtain approval from
a peer or higher level for travel related matters.

                                        21
Audit of Premium Travel                                            September 29, 2008
Report No. 447
Recommendation 5

The Office of Financial Management should revise current policy to address
situations where travelers leave from a telework location and prohibit travel from
a telework location if it results in additional cost to the Commission.

Recommendation 6

The Office of Financial Management should immediately begin to enforce the
Office of Management and Budget’s requirement to restrict premium class travel
for temporary duty when the employee is not required to report to duty the
following day and include this requirement in its travel policies and procedures.




                                        22
Audit of Premium Travel                                            September 29, 2008
Report No. 447
                                                   Appendix V
                          Management Comments




                                  23
Audit of Premium Travel                         September 29, 2008
Report No. 447
                          24
Audit of Premium Travel        September 29, 2008
Report No. 447
                          25
Audit of Premium Travel        September 29, 2008
Report No. 447
                                                                    Appendix VI

                Office of Inspector General
           Response to Management’s Comments

The Office of Financial Management (OFM) generally concurred with all 6
recommendations and indicated that it would take action to implement all of the
recommendations. The Office of Inspector General believes that OFM’s
proposed actions are responsive to our findings and recommendations.




                                       26
Audit of Premium Travel                                          September 29, 2008
Report No. 447
                       Audit Request and Ideas

The Office of Inspector General welcomes your input. If you would like to request an
audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. # 202-551-6061
Fax # 202-772-9265
Email: oig@sec.gov




       Hotline
       To report fraud, waste, abuse, and mismanagement at SEC,
       contact the Office of Inspector General at:

              Phone: 877.442.0854

              Web-Based Hotline Complaint Form:
              www.reportlineweb.com/sec_oig
